                                                 NA TIONAL SCIENCE FOUNDA TION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: 109120070                                                                    Page 1 of 1



        . The OIG initiated an investigation based on a complaint that an individual l at a research
          organization2 fraudulently used NSF award funds 3 to pay travel expenses for overseas personal
          vacations and for his family's travel, and to reimburse excessive meal costs.

         The investigation found no evidence of fraud involving the individual, but did identify
         potentially unallowable travel expenses (including excessive meal costs) for the individual and
         others, and other questionable expenses that had been charged to the award. The organization
         provided documentation to show the majority of expenses questioned by the OIG were legitimate
         for the award.

         The organization acknowledged it charged $2,792.82 to the NSF award for excessive meal costs
         during travel, and refunded the $2,792.82 to NSF. The organization also took corrective action
         to ensure future award funds will be used appropriately.

         Accordingly, this case is closed.




         2




NSF OIG Form 2 (11102)
